                                                                             Report No. DoDIG-2014-032




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              JA N UA RY 2 7 , 2 0 1 4




                     Defense Logistics Agency
                     Effectively Managed Continental
                     U.S. Mission-Critical Batteries




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       Defense Logistics Agency Effectively Managed
                                       Continental U.S. Mission-Critical Batteries



January 27, 2014                                       Finding Continued

Objective                                              reviewed at four continental U.S. installations.  The Agency did
                                                       not meet the 4-day standard for 14 requisitions because
We determined whether the Defense                      the batteries were on backorder or deliveries were delayed.
Logistics     Agency       effectively    fulfilled    However, we found no adverse impact to the customer
warfighter requirements for batteries                  operations where the 14 requisitioned mission-critical
designated mission-critical by military                batteries delivered did not meet the 4-day standard.  Adverse
services.     Specifically,    we     determined       impact was avoided because customers used alternative
whether Defense Logistics Agency met                   replacement batteries on-hand that performed the same
the 4-day continental U.S. time definite               intended need or identified alternative solutions until the
delivery standard for fiscal year 2012                 requisitioned batteries were delivered. Therefore, we did
mission-critical battery requisitions. The             not make recommendations.
DoD Supply Chain Materiel Management
Regulation notes that the time definite
delivery concept represents 85 percent of              Management Comments
the total time that the wholesale supply               No response to this report was required, and none was
system is capable of delivering the required           received.  Therefore, we are publishing this report in final form.
materiel to its customers.


Finding
The Agency met the 4-day continental U.S.
time definite delivery standard for 82 of 96
requisitions for mission-critical batteries




Visit us on the web at www.dodig.mil


                                                                  Report No. DoDIG-2014-032 (Project No. D2013-D000LG-0091.000) │ i
                                               INSPECTOR GENERAL
                                              DEPARTMENT OF DEFENSE
                                              4800 MARK CENTER DRIVE
                                           ALEXANDRIA, VIRGINIA 22350-1500


                                                                                           January 27, 2014

              MEMORANDUM FOR DIRECTOR, DEFENSE LOGISTICS AGENCY

              SUBJECT:	 Defense Logistics Agency Effectively Managed Continental U.S.
                        Mission-Critical Batteries (Report No. DoDIG-2014-032)

              We are providing this report for your information and use.  DLA met a 4-day
              continental U.S. time definite delivery standard for 82 of 96 mission-critical battery
              requisitions assessed at four continental U.S. installations.  We found no adverse impact
              to the customer mission where the 14 requisitioned batteries delivered did not meet the
              4-day continental U.S. standard. Therefore, no recommendations are warranted.

              We considered management comments on a discussion draft of this report in preparing
              the final and revised the report as appropriate.  No written response to this report was
              required, and none was received.

              We appreciate the courtesies extended to the staff.  Please direct questions to me at
              (703) 604‑8905 (DSN 664-8905).




              	 Amy J. Frontz
              	 Principal Assistant Inspector General
              		 for Auditing


              Cc:	 Assistant Secretary of the Air Force (Financial Management and Comptroller)
                   Naval Inspector General
                   Auditor General, Department of the Army




ii │ Report No. DoDIG-2014-032
Contents
Introduction______________________________________________________________________________1
Objective__________________________________________________________________________________________1
Background_______________________________________________________________________________________1
Review of Internal Controls_____________________________________________________________________2

Finding. DLA Met Continental U.S. Critical
Battery Requirements____________________________________________________________3
DLA Fulfilled Continental U.S. Battery Requisitions __________________________________________3
Customer Missions Were Not Adversely Impacted by Identified
DLA Battery Backorders_________________________________________________________________________4

Appendix___________________________________________________________________________________7
Scope and Methodology_________________________________________________________________________7
     Use of Computer-Processed Data_________________________________________________________8
     Use of Technical Assistance________________________________________________________________8
     Prior Coverage______________________________________________________________________________8

Acronyms and Abbreviations______________________________________________ 10




                                                                                          Report No. DoDIG-2014-032 │ iii
                                                                                                                             Introduction




Introduction
Objective
Our overall objective was to determine whether Defense Logistics Agency (DLA)
effectively fulfilled warfighter requirements for batteries designated mission-critical
by military services. This audit covered continental United States (CONUS) requisitions
for mission-critical batteries.  See the Appendix for a discussion of the scope and
methodology, and prior coverage.


Background
DLA, headquartered at Fort Belvoir, Virginia, provides the Army, Navy, Air Force,
Marine Corps, other federal agencies, and combined and allied forces with the
full spectrum of logistics, acquisition, and technical services.  DLA supports more
than 2,250 weapon systems, and supplies more than 84 percent of the military’s
spare parts.

DoD Supply Chain Materiel Management Regulation 4140.1-R, Appendix 8,
May 23, 2003, identifies time-definite delivery (TDD) standards for the amount
of time that should elapse during any given supply pipeline segment for
items that are in stock or for items that are processed as part of planned DLA
direct deliveries.  TDD standards include a 4-day CONUS standard.  The regulation
further defines the TDD concept as representing 85 percent of the aggregate times
that the wholesale supply system is capable of delivering the required materiel
to its customers.

DoD’s weapon systems and equipment rely on batteries and other power
sources.  Battery supply chains are managed by the DLA Land and Maritime
Columbus,           Ohio,      field     activity.      Basic      categories         include       rechargeable     and
non-rechargeable batteries, and battery fixtures.  DLA supplied data indicated
that       FY     2012        “mission-critical”          (Issue       Priority       Group-1        [IPG-1])   battery
procurements totaled $62.4 million.  The FY 2012 battery procurements covered
two battery related Federal Supply Code classes: 6135 (Non-Rechargeable Batteries)
and 6140 (Rechargeable Batteries).1




	1	
      The audit also reviewed Federal Supply Code 6160, Miscellaneous Battery Retaining Fixtures and Liners.




                                                                                                                Report No. DoDIG-2014-032 │ 1
Introduction



                   Customer requisition supplies are based on the criticality of the need.          Defense
                   Logistics Management System 4000.25, “Supply Standards and Procedures,”
                   volume 2, June 13, 2012, notes that mission-critical designations for requisitions
                   were based on the high priority nature of the operations performed by the
                   individual installations as designated by the Secretary of Defense, the Chairman
                   of the Joint Chiefs of Staff, or a DoD component authorized by the Chairman.
                   The criticality of the mission is tied to the Joint Chiefs of Staff assigned force or
                   activity designator.  This assignment, combined with a unit-determined urgency
                   of need designator of “A,” forms the basis of an IPG-1 requisition. An “A” urgency
                   of need designator is required for immediate end-use. Without it, the force or activity
                   is unable to perform its assigned operational mission within 15 calendar days.


                   Review of Internal Controls
                   DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
                   May 30, 2013, requires DoD organizations to implement a comprehensive system
                   of internal controls that provides reasonable assurance that programs are
                   operating as intended and to evaluate the effectiveness of the controls.
                   We determined that the internal controls over the DLA supply chain management
                   of mission-critical battery requisitions reviewed were effective.  We will provide a
                   copy of the report to the senior official(s) responsible for internal controls in DLA.




2 │ Report No. DoDIG-2014-032
                                                                                                                                   Finding




Finding
DLA Met Continental U.S. Critical Battery Requirements
DLA met warfighter requirements for 82 of 96 requisitions of mission-critical
batteries reviewed at four CONUS installations, but did not meet the 4-day CONUS
TDD standard for 14 of the 96 requisitions reviewed.  Deliveries of 13 of
14 requisitioned batteries occurred between 8 to 27 days after the order was
placed.  Delivery of the 14th requisition occurred 111 days after being ordered.
DLA did not meet the 4-day standard for the 14 requisitions because the batteries
were on backorder or deliveries were delayed.

We found no adverse impact to the customer mission for the 14 requisitions that
did not meet the 4-day CONUS TDD standard.  There was no impact because
customers used alternative replacement batteries on-hand in local stock that
performed the same function as the requested mission-critical battery, or identified
alternative solutions until equipment was delivered.



DLA Fulfilled Continental U.S. Battery Requisitions
DLA        fulfilled      CONUS        warfighter         requisitions        for     batteries          designated    as
mission-critical by military services.  DLA met the 4-day CONUS TDD standard for
82 of 96 CONUS critical battery requisitions reviewed.2  For the 82 requisitions,
DLA properly estimated and planned battery demand, procured the subject
batteries, and maintained sufficient stock to fill the mission-critical requisitions
within the 4-day standard.

For       example,         on      April      17,     2012,       Joint      Base       Myer-Henderson             Hall,
Virginia,        requisitioned         60     non-rechargeable            LR44       batteries       (national     stock
number [NSN] 6135-01-174-8057).  On April 18, 2012, DLA shipped the batteries
from DLA New Cumberland, Pennsylvania, stock.  In a second example, on
August 13, 2012, the Naval Air Facility at Joint Base Andrews, Maryland,
requisitioned             50     non-rechargeable               batteries        (NSN        6135-01-536-8333).
On August 15, 2012, DLA filled this order, also from its New Cumberland stock.




	2	
      Please see the Appendix, Scope and Methodology, for a breakdown of the 96 requisitions reviewed.




                                                                                                                Report No. DoDIG-2014-032 │ 3
Finding



                   Customer Missions Were Not Adversely Impacted
                   by Identified DLA Battery Backorders
                   DLA mission-critical battery requisitions did not meet the 4-day CONUS TDD
                   standard for 14 of 96 requisitions reviewed.  However, we found no adverse impact
                   to customer mission for the 14 requisitions that did not meet the 4-day standard.
                   There was no impact because customers used alternative replacement batteries
                   on-hand in local stock that performed the same function as the requested
                   mission‑critical battery, or identified alternative solutions until equipment
                   was delivered.

                   For 8 of the 14 non-standard fulfillments, customers used replacement batteries
                   on-hand in local stock.  For example, two requisitions from Fort Meade, Maryland,
                   did not meet the 4-day CONUS TDD standard. However, Fort Meade logistics personnel
                   stated that shortages of mission-critical batteries had not occurred because the local
                   logistics personnel monitored on base stock levels and reordered batteries in time to
                   avoid a critical battery shortage.

                   The following are three further examples of delayed DLA deliveries and the actions
                   taken by customers until backorders were filled by DLA Land and Maritime
                   (DLA L&M) offices.  The Fort Bragg and Joint Base Andrews examples show use
                   of alternative replacement batteries on hand in local stock, while Joint Base
                   Myer-Henderson Hall example shows a base identifying an alternative solution until
                   backorders were filled.


                   Rechargeable Vehicle Batteries for Fort Bragg
                   DLA and Fort Bragg personnel noted that during FY 2012, CONUS stocks of
                   rechargeable vehicle battery (NSN 6140-01-485-1472) were in short supply.
                   DLA personnel noted that FY 2012 CONUS supply shortages and backorders were
                   due to long production lead times and DLA transfers of battery stock to outside
                   of CONUS for southwest Asia operations.  By April 2013, DLA had corrected the
                   problem and had fully stocked the rechargeable vehicle battery in CONUS.
                   Fort Bragg Forces Command maintenance and logistics personnel noted that the
                   rechargeable vehicle battery was more desirable because as an Absorbed Glass
                   Mat battery it was less likely to leak and could be recharged more easily. However,
                   lack of domestic stock of the rechargeable vehicle battery had no effect on
                   Fort Bragg operations because the base was able to use three alternative in-stock
                   vehicle batteries categorized as “wet cell” batteries.  The wet cell batteries were
                   provided by DLA to Fort Bragg through Direct Vendor Delivery contracts.



4 │ Report No. DoDIG-2014-032
                                                                                                    Finding




             Figure. Two Rechargeable Vehicle Batteries (NSN 6140-01-485-1472)


Aircraft Batteries for Joint Base Andrews
The Naval Air Facility at Joint Base Andrews requisitioned six aircraft batteries
(NSN 6140-01-555-6118).  DLA delivery of the Joint Base Andrews requisitioned
batteries occurred 111 days after order because of backorder and contract lead
time delays.  The requisition date was January 5, 2012, and the batteries were
shipped by DLA on April 24, 2012, from DLA Tracy, California, depot stock.
Before the shipment, DLA Tracy stock was replenished on April 24, 2012,
through deliveries from contract SPM7LA12M0152. On November 7, 2011,
DLA and the vendor signed contract SPM7LA12M0152 for 70 aircraft batteries. 
The contract included a 189-day production and delivery lead time (by May 14, 2012)
for planned battery replenishment at three DLA depot locations, including
DLA Tracy.  The vendor delivered the batteries to DLA 19-days before the




                                                                                 Report No. DoDIG-2014-032 │ 5
Finding



                   contractually   required   date.   However,   the   contractual   lead   times   resulted
                   in prolonged backorders for the aircraft battery when existing stocks ran out
                   before January 5, 2012.  Adverse impact was avoided because Joint Base Andrews
                   used the NSN 6140-01-555-6118 batteries on-hand in local stock until the
                   requisitioned batteries were delivered.


                   Battery Racks for Joint Base Myer-Henderson Hall
                   Six Joint Base Myer-Henderson Hall requisitions ordering 24 vehicle battery racks
                   (NSN 6160-01-453-0858) were issued between March 29 and April 12, 2012.
                   DLA deliveries of the battery racks to Joint Base Myer-Henderson Hall took between
                   12 and 27 days because DLA had no stock on hand.  Joint Base Myer-Henderson
                   Hall personnel stated that the battery racks were for use in on-base trucks and
                   other vehicles.  Joint Base Myer-Henderson Hall maintenance personnel stated they
                   improvised when the racks were not delivered by making temporary battery racks
                   that would properly secure the batteries in position until they received the correct
                   battery racks from DLA.  Therefore, customer missions were not adversely impacted
                   by delayed delivery of the requisitioned batteries.  The DLA backorder problem was
                   resolved in late April 2012 when additional battery racks were procured through
                   additional contracts with the manufacturer.




6 │ Report No. DoDIG-2014-032
                                                                                                                                   Appendix




Appendix
Scope and Methodology
We conducted this performance audit from February through December 2013
in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives.  We believe that the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.

From a FY 2012 universe of 74,773 CONUS battery requisitions obtained from
DLA Transaction Services, we selected a non-statistical sample of 223 requisitions
for review.  We conducted analysis of 60 selected IPG-1 battery requisitions at
Joint Base Myer-Henderson Hall, Virginia; 133 requisitions at Joint Base Andrews,
Maryland; 1004 requisitions at Fort Bragg, North Carolina; and 50 requisitions at
Fort Meade, Maryland, to identify late deliveries and any mission impact encountered
by customers due to the late shipments.  The visits also allowed us to verify DLA
IPG-1 battery data obtained from DLA through Military Service electronic delivery
receipts and hardcopy records kept by customers and receiving depots. We visited
DLA Land and Maritime Operations center, Columbus, Ohio, to review demand, supply,
and procurement materiel stockage computations for batteries fulfilling the
selected IPG-1 battery requisitions and reasoning for unexplained late deliveries.

Of the 223 requisitions selected, 25 were either canceled by the customer or
rejected by DLA because of incorrect format.  An additional 102 requisitions were
not subject to the 4-day DLA TDD standard because they were filled by Military
Service warehouses (41), were vendor stocked and supplied based on DLA
long-term contracts (56), or were DLA centrally procured “non-Stocked” items (5).
This left 96 of the 223 subject to the CONUS 4-day TDD standard.  We compared
the order date to the receipt date for the 96 requisitions to determine whether DLA
was able to supply the requisitioned batteries within the 4-day TDD standard.




	3	
    The 13 requisitions reviewed at Joint Base Andrews included 7 requisitions from the Naval Air Facility, Washington D.C.,
    5 requisitions from the District of Columbia Air National Guard, and 1 requisition from the Air Force 11th Wing.
	4	
    The 100 requisitions reviewed at Fort Bragg included 74 requisitions from the U.S. Army Forces Command, 14 requisitions
    from the Fort Bragg Directorate of Logistics, and 12 requisitions from the U.S. Army Special Operations Command.




                                                                                                                  Report No. DoDIG-2014-032 │ 7
Appendix



                   Use of Computer-Processed Data
                   We used computer-processed data obtained from DLA’s Defense Automated
                   Addressing System (DAAS) to identify FY 2012 CONUS requisitions for
                   mission-critical batteries and to select a non-statistical sample of mission-critical
                   battery requisitions for review. To assess the reliability of DAAS computer-processed
                   data, we compared DAAS order, shipping, and receipt dates to hardcopy and electronic
                   source documentation for sampled requisitions maintained by military service
                   logisticians at Joint Base Myer-Henderson Hall, Fort Meade, Fort Bragg, and Joint
                   Base Andrews.  Where available, hardcopy source documentation contained DoD
                   and Army receipt documents including DD Forms 1348, DA Forms 2765-1,
                   Army Customer Issue lists, and commercial delivery receipts. Supplemental electronic
                   receipt documentation was gathered through the Army Logistics Support Activity
                   system, Navy OneTouch system, and Air Force Tracker Logistics system. We compared
                   both hardcopy and supplemental electronic receipt documentation to the DAAS
                   data to assess the reliability of the DAAS data.  We did not find material errors or
                   significant differences in the order, shipping, and receipt data. Therefore, we
                   determined that the data was sufficiently reliable for the purposes of this report.


                   Use of Technical Assistance
                   We consulted with personnel from the OIG Quantitative Methods Division to
                   identify potential audit sites and obtain a nonstatistical sample selection of FY 2012
                   mission-critical CONUS battery requisitions.


                   Prior Coverage
                   During the last 5 years, the Government Accountability Office (GAO) issued
                   4 reports discussing the availability and oversight of critical items such as batteries
                   being provided in a timely manner to the warfighter.  Unrestricted GAO reports
                   can be accessed over the Internet at http://www.gao.gov.




8 │ Report No. DoDIG-2014-032
                                                                                              Appendix



GAO
GAO Report No. GAO-12-842, “Batteries and Energy Storage - Federal Initiatives
Supported Similar Technologies and Goals but Had Key Differences,” August 2012

GAO Report No. GAO-11-417T, “Warfighter Support - DoD Should Have a More
Comprehensive Approach for Addressing Urgent Warfighter Needs,” March 2011

GAO Report No. GAO-11-273, “Warfighter Support - DoD’s Urgent Needs Processes
Need a More Comprehensive Approach and Evaluation for Potential Consolidation,”
March 2011

GAO Report No. GAO-11-113, “Defense Acquisitions - Opportunities Exist to Improve
DoD’s Oversight of Power Source Investments,” December 2010




                                                                             Report No. DoDIG-2014-032 │ 9
Acronyms and Abbreviations




                  Acronyms and Abbreviations
                    CONUS Continental United States
                      DAAS Defense Automated Addressing System
                        DLA Defense Logistics Agency
                      IPG-1 Issue Priority Group-1
                       NSN National Stock Number
                       TDD Time Definite Delivery




10 │ Report No. DoDIG-2014-032
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                           1.800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
